      Department of Homeland Security




            Independent Review of U.S. Customs and
             Border Protection’s Reporting of FY 2012
                     Drug Control Obligations




OIG-13-34                                         January 2013

                 - - - - _.




                          OFFICE OF T;'(SPECTOR GENERAL
                               D"Partmenl of Hom eland   S ~urjly




                               JAN 3 1 2013

MEMORANDUM toR:                Eugene H. Schied
                              AS5ist~lltCommi5\ioner
                               U.S. CU5toms and Border Prote<:tion

FROM'                         Anne L. Richards    ~ :i£.,.L.,J,
                              Assi51ant Inspector General for Audits

SUBJECT:                      Independent Revi~w of u.s. Customs and Border
                              Protection's Reporting of FY 2012 Drug Control Obligetions

Attached for you r in formation i, Our final report, indepI!nrient Review of u.s. Customs
and Border Protection'5 Rl!porting of FY 2012 Drug Control Obligation5. U.s. Cu,tDms
.00 Border Protection', management prep~red the Table of FY 2012 Drug Control
Obligation, and related di5closures to comply with the reQuirement5 of the Office of
N~tiona l Drug Control Policy Circular, Drug Control AccounOng, dated May 1, 2007.


We contracted with tne independent public accounting firm KPMG llP to pe,form tne
re~iew. KPMG llP i, ''''pomi ble for the attached independent accountants' 'epo't,
dated January 22, 2013, and the conclu sion, exp'essed in it. We do not express an
opinion on the Table of FY 2012 Drug Control Obligations and ,e lated disclosures. Th is
report contains no recomme ndations.

Consistent with our responsibility under the Insputor General Act, w" are pravid ing
copies of Our report to appropriate congre"ional com mitte", with oversight and
appropria tion r"'pomibility over the Department of Homeland Security_ We will post
t he re port on our website for public dissemination.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assi,tant
Inspector General for Audits, at (202) 254·4100.

Attachment
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                              Independent Accountants’ Report


Deputy Inspector General
U.S. Department of Homeland Security:

We have reviewed the accompanying Table of FY 2012 Drug Control Obligations and related
disclosures of the U.S. Department of Homeland Security’s (DHS) Customs and Border
Protection (CBP) for the year ended September 30, 2012. We have also reviewed the
accompanying management’s assertions for the year ended September 30, 2012. CBP’s
management is responsible for the preparation of the Table of FY 2012 Drug Control
Obligations, related disclosures, and the assertions.
Our review was conducted in accordance with attestation standards established by the American
Institute of Certified Public Accountants, and applicable standards contained in Government
Auditing Standards, issued by the Comptroller General of the United States. A review is
substantially less in scope than an examination, the objective of which is the expression of an
opinion on the Table of FY 2012 Drug Control Obligations, related disclosures, and
management’s assertions. Accordingly, we do not express such an opinion.
Management of CBP prepared the Table of FY 2012 Drug Control Obligations, related
disclosures, and management’s assertions to comply with the requirements of the Office of
National Drug Control Policy (ONDCP) Circular, Drug Control Accounting, dated May 1, 2007
(the Circular).
Based on our review, except as described in the paragraph below, nothing came to our attention
that caused us to believe that (1) the Table of FY 2012 Drug Control Obligations and related
disclosures for the year ended September 30, 2012, are not presented, in all material respects, in
conformity with the Circular, or that (2) management’s assertions referred to above are not fairly
stated, in all material respects, based on the criteria set forth in the Circular.
In the accompanying management’s assertions for the year ended September 30, 2012,
management did not assert that the assumptions used in the estimation methods for determining
obligations by drug control decision were subjected to periodic review to confirm their
continued validity as required by section 6b(b) of the Circular. Additionally, management did
not provide supporting documentation evidencing the periodic review of those assumptions.
This report is intended solely for the information and use of the management of DHS and CBP,
the DHS Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and
should not be used by anyone other than these specified parties.




January 22, 2013




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
                                                                       1300 Pennsylvania. Avenue NW
                                                                       WashinglOn, DC 20229


                                                            ,'~,
                                                               U.S. Custo ms and
                                                            ~~ Border Prote ction
                                                            ~ .. o.~
     JAN 2 2 2013

Mr. R. Gil Kerlikowske
Director, Office of National Drug Control Policy
Executive Office of the President
Office of National Drug Control Policy
Washington, DC 20503


Dear Mr. Kerlikowske:

Enclos ed is the U. S. Customs and Border Protection (CBP) Fiscal Year
                                                                       (FY) 2012 Detailed
Accounting Submission on National Drug Contro l Funding. In FY 2012,
                                                                     CBP reported direct
obligations of approximatel y $2,249 million .

If you have any questi ons or would like additional infonnation, please contac
                                                                              t me at
(202) 344-2300, or a member of your staff may contact Mr. Sean Mildrew,
                                                                            Executive Director,
Budge t Directorate, at (202) 344-22 10.




Debonth J. Schilling
Chief Financial Officer

Enclosure
                     U.S. DEPARTMENT OF HOMELAND SECURITY
                       U.S. CUSTOMS AND BORDER PROTECTION
               Detailed Accounting Submission of FY 2012 Drug Control Funds


DETAILED ACCOUNTING SUBMISSION

A. Table of FY 20 12 Drug Control Obligations

                                                n Mil

                                                                               FY2012

Drug Resources by Budget Decision Unit and Function
 Salaries & Expenses
          Intelligence
          Interdiction
Total, Salaries and Expenses
 Air & Marine Operations
       Intelligence
       Interdiction
Total, Air & Marine Operations
Border Security Fence Infrastructure & Technology (BSFIl)
          Interdiction
         Border            Fence Infrastructure &


     High Intensity Drug Traffic Area (HlDTA)
          Intelligence
          Interdiction


I.    Drug Methodology

U.s. Customs and Border Protection (CBP) is a multi-mission bureau that calculates obligations,
by budget decision unit and function, pursuant to an approved drug methodology. On the basis of
past practice, six organizations within CSP, the Offices of: Border Patrol (OBP); Field
Operations (OFO); Information Technology (O IT); Training and Development (OTD); Office of
Technology Innovation & Acquisition (OTIA), and Air and Marine (OAM) were provided with
guidance on preparing submissions for the FY 2012 annual reporting of drug control obligations.
OBP, OAM, OIT, OTD, OTIA, and OFO were asked to esti mate what portion of their activities
is related to drug enforcement. The aforementioned portions are based on the expert opinions of
operational and programmatic staff from the offices.
Page 2



All six organizations identified resources in their financial plans that support the drug
enforcement mission of the agency. OIT, OFO, OBP, and DAM attribute their resources to both
intelligence and interdiction functions; while aTIA and OTD attribute their resources solely to
interdiction.

OFFICE OF BORDER PATROL

OBP is responsible for controlling almost 6,000 miles of land borders between ports of entry
with Canada and Mexico and nearly 2,700 miles of coastal waters surrounding the Florida
Peninsula and Puerto Rico. There were 21 , 165, Border Patrol agents as of September 22, 2012.
assigned to the mission of detecting and apprehending illegal entrants between the ports-of-entry.
These illegal entries include aliens and drug smugglers, potential terrorists, wanted criminals,
and persons seeking to avoid inspection at the designated ports of entry due to their
undocumented status, thus preventing their illegal entry. It has been determined that 15 percent
of the total agent time nationwide is related to drug activities. This percentage was determined
based on a review of the hours worked by agents, K9 officers, and core personnel at various
border check-points with narcotic-intensive activities. Of the 15 percent of total agent time
related to drug activities, 3.5 percent of agents ' efforts are related to intelligence and 96.5 percent
are related to drug interdiction. These activities include staffing 35 permanent border traffic
checkpoints nationwide including 950 canine units trained in the detection of humans and certain
illegal drugs that are concealed within cargo containers, truck trailers, passenger vehicles, and
boats. In addition, agents perform line watch functions in targeted border areas that are frequent
entry points for the smuggling of drugs and people into the United States.

OFFICE OF FIELD OPERATIONS

The Office of Cargo Conveyance and SecurityfNon-lntrusive Inspection Division of the OFO
estimates that, as of September 2012, there were 4,214 CBP officer positions related to drug
enforcement on Anti-Terrorism Contraband Enforcement Teams (A-TCET). CBP established
these teams in 2003, uniting the former Contraband Enforcement Teams (CET), Manifest
Review Units (MRU). Non-Intrusive Inspection, Canine, and Outbound teams to form a single
A-TCET enforcement team. The A-TCET also works closely with the Passenger Enforcement
Rover Team (PERT) and Passenger Analytical Unit (PAU) teams to coordinate all enforcement
activities. CBP estimates that 69 percent of the A-TeET is devoted to drug enforcement. This
estimation was made by experts in the field who used best estimates to determine the amount of
time officers and Agriculture Specialists spent in the field on activities devoted to narcotics
seizures like cargo and passenger inspections. The smuggling methodo logies and their indicators
are similar for both narcotics and anti-terrorism activities.

As of September 2012, there were 680 Canine Enforcement Officers with assigned dogs.
Among the dogs paired with an officer, 112 were Narcotics Detection Teams, 52 Currency
Firearms Detection Teams, and 355 Narcotics/Human Smuggling Detection Teams that were
nearly 100 percent devoted to smuggling interdiction. Also included in the total , but not scored
for narcotics enforcement were 115 Agricultural Teams and 46 K-9 Trainers and Field Advisors.
Page 3



Eight dog handlers did not have dogs at the time that this data was collected. This was due to
recent canine retirements and extended leavellight duty assignments.
As of September 2012, there were also 16,827 other CBP officers, who, in add ition to the
interdiction of contraband and illegal drugs, enforce hundreds of laws and regulations of many
other Federal government agencies. The other Federal Agencies include, for example, the U.S.
Fish and Wildlife Service, the Bureau of Alcohol. Tobacco, Firearms and Explosives, and the
Bureau of Export Administration among many others. CBP subject matter experts estimate that
rough ly 30 percent of these officers' time is devoted to drug-related activities.

OFFICE OF fNFORMATION TECHNOLOGY

OIT supports the drug enforcement mission through the acquisition, and support and
maintenance of technology. such as non-intrusive inspection (NIl) systems and mission critical
targeting software systems. OfOJT' s spending, 30 percent of the Enforcement Technology
Center (based on NIl technology deployed); 25 percent of Automated Targeting Systems
(Passenger, Narcotics, and Anti-Terrorism) software costs; 10 percent of the Treasury
Enforcement Communications System (TECS); and 10 percent of data center operations costs is
estimated in support of the drug mission. Of the percent ofOIT's resources related to drug
activities, 36 percent is related to intelligence and 64 percent are related to drug interdiction.

OFFICE OF TRAINING AND DEVELOPMENT

OTD provides training courses funded via the National Training Plan (NTP). Specific training
programs involving drug control activities include the canine training programs and basic,
specialized, and advanced training for CBP officers. These specific training programs provided
by OTD are related to drug interdiction activities and not intelligence activities. Other OTD
resources were attributed to drug enforcement activities based on the diverse nature ofOTD's
programs, such as anti-terrorism , development of national programs, career development,
leadership, new course design/development, and succession management for the workforce.
OTD ' s methodology evaluates the number of course hours dedicated to drug interdiction within
the National Training Plan and for each course compares drug interdiction course hours against
total course hours to detennine the percentage for drug interdiction.

OFFICE OF TECHNOLOGY fNNOVATION & ACQU ISITION

CBP is the lead agency within Department of Homeland Security for the development and
deployment of border technology and tactical infrastructure to secure America's borders.
OTIA ' s Border Security, Fencing, Infrastructure, and Technology (BSFJT) programs deliver
detection and surveillance technology systems to both the southwest and northern borders.
These technologies increase situational awareness and assist law enforcement personnel in
identifying and resolving illegal activity. For this drug control estimate. based on the nature of
these expenditures, OTIA is applying the Border Patrol ratio of 15 percent to the entire account.
OTiA funding is so lely related to drug interdict ion activ ities as OTtA does not provide
intelligence support.
Page 4




OFFICE OF AIR & MARINE OPERA nONS

OAM ' s core competencies are air and marine interdiction, air and marine law enforcement, and
air domain security. In this capacity, the OAM targets the conveyances that illegally transport
narcotics, arms, and aliens across OUT borders and in the Source, Transit and Arrival Zones. In
past support of Source and Transit Zone interdiction operations, the Air and Marine P-3 Program
has dedicated a minimum 0[7,200 hours a year in support of loint Interagency Task Force -
South.

Although DAM ' s P-3 fleet continued its Service Life Extension Program (SLEP) and wing
replacement program in Fiscal Year (FY) 2012, the P-3 ' s flew over 5,500 flight hours accounting
for 129,849 pounds ofillegaJ drugs disrupted or seized. Successful completion of the SLEP
program will add 15.000 flight hours to the service life of each OAM P-3 aircraft. The first set
of wings was delivered to Lockheed Martin in November 2009, where the initial wing
installation was completed. The aircraft was returned to service in September 20 I O. As of
September 2012. 5 of the 14 P-3s have completed the rewinging and have returned to service.
The installation of the last set of wings and tails are scheduled for 2016. increasing the total
service life of the CSP P-3 fleet to 210,000 flight hours. The P-3 fleet will continue to playa
significant role in interdiction, law enforcement, and air domain security in Source. Transit, and
Arrival Zones through FY 2027.

Since September II , 200 I, OAM has steadily increased its support to counter-terrorism by
developing a more cohesive and integrated response to national security needs as well as more
emphasis on illegal immigration. Currently, OAM is dedicating significant assets and personnel
in support of Operation Halcon- a U.S. / Mexico interdiction initiative, and support to the OSP
in southwest border illegal alien intervention.

Using night hours spent perfonning drug related activities, OAM has detennined that 81.83
percent of the budget resources that support OAM are considered to be drug-related. Of the total
flight hours flown by OAM, 18.2 percent were related to intelligence.

2. Methodology Modifications

The drug control methodology for obligations used in FY 2012 remained the same as the
methodology used in FY 2011 for the previously reported offices. In FY 2012 CSP, added the
decision unit for the SSFIT appropriation because its programs and activities support OSP's
drug control efforts.

3. Material Weaknesses or Other Findings

Pursuant to CSP ' s FY 2012 Internal Control Assurance Statement, the following financial
weaknesses, reportable conditions, or non-conformance could affect the reporting of drug control
budget obligations.
Page 5




Reporting Pursuant to Federal Managers' Financial Integrity Act Section 4. 31 U.S.C. 3512 (d)
(2)(B):

     a.   Financial Systems Security - Non-Conformance of Applicable LawslDHS Directives

The DHS Office of the Inspector General (OIG) has noted that there continues to be Infonnation
Technology (IT) general and application control weaknesses at CBP. During FY 2012, CBP
completed remediation work on 15 oflhe 36 findings issued in the FY 20 II Financial Statement
Audit. CBP had 25 new findings during FY 2012. CBP reviewed the procedural changes and
concluded that the weaknesses had been remediated. CBP will continue to remediate IT findings
in FY 2013.

4.   Reprogrammings or Transfers

CBP submitted pay shortfall reprogrammingsltransfers for the OBP and OFO in FY 2012. The
reprogrammings were approved by ONDep.

5. Other Disclosures

There are no other disclosures that CBP has determined are necessary to clarify any issues
regarding the data reported under ONDCP Circular, Drug Control Accounting, dated May I,
2007, Section (6)(b)(I).

B. Assertions

I. Obligations by Budget Decision Unit

Not Applicable - As a multi-mission agency, CBP is exempt from reporting under this section as
noted in the ONDCP Circular, Drug Control Accounting, Section 6(b)(I), dated May 1,2007.

2. Drug Methodology

CBP asserts that the methodology used to estimate drug enforcement related obligations is
reasonable and accurate. The criteria associated with this assertion are as follows:

     a. Data

     The estimate of drug enforcement related obligations is based on the methodology described
     in section A.I above, and presents a fair and accurate picture of the CBP drug enforcement
     nllSSlOn.
Page 6




   h. Other Estimation Methods

   As referenced in sect ion A.I, program offices used expert opinion to determine drug budget
   methodologies. Intelligence and interdiction levels were established and computed based
   upon the professional judgment of the programs. The drug control budget program totals and
   the percentage of resources related to drug enforcement act ivities were calculated by expert
   opinion. During FY 2012, CBP did not conduct periodic reviews of our drug budget
   methodologies; however, CBP intends to revisit the methodologies of all program offices in
   FY 2013.

   c. Financial Systems

   Despite the IT general and application control weaknesses noted in section A.3 , CBP's
   financial systems are capable of providing data that fairly present, in all material
   respects, aggregate obligations. The drug methodology described in section A.I above is
   used to estimate what portion of these obligations may reasonably be considered to be
   associated with drug enforcement related activities.

3. Application of Drug Methodology

The methodology described in section A.I above was used to prepare the estimates contained in
this report.

4. Reprogrammings or Transfers

Pursuant to 21 U.S.C. 1703 (c) (4) (A), the ONDCP Circular on Budget Execution (revised May
I, 2007) prohibits agencies from submining to Congress reprogramming or transfer requests that
wou ld result in a decrease or increase of$1 million or more in funding included in the National
Drug Control Program budget without obtaining prior approval from the Director of National
Drug Control Policy. CBP submitted reprogrammings I transfers that affected the drug control
budget during FY 2012.

Reprogrammings and transfers made to the OBP and OFO in FY 20 12 were approved by
ONDCP 's Acting Associate Director for Performance and Budget on Jul y 16, 20 12 and August
14, 2012.

5. Fund Control Notices

The Director of National Drug Control Policy did not issue a Fund Control Notice for CB P for
FY2012.
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Office of National Drug Control Policy

   Associate Director for Planning and Budget

   U.S. Customs and Border Protection

   Commissioner
   Chief Financial Officer
   Audit Liaison

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-13-34
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
